wr

@OCKLE

2311 Douglas Street i
Omaha, Nebraska 68102-1214 Le Ba 1B tiefs
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-230
DOUGLAS PRADE,
Petitioner,
v.
STATE OF OHIO,
Respondent.
AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of September, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were

plainly addressed to the following:

SEE ATTACHED

To be filed for:
SHERRI BEVAN WALSH
Prosecuting Attorney
Summit County, Ohio

JACQUENETTE S. CORGAN
Counsel of Record

Assistant Prosecuting Attorney

53 University Avenue, 6th Floor
Akron, Ohio 44308

(330) 643-2800
jcorgan@prosecutor.summitoh.net

Subscribed and sworn to before me this 19th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

State of Nebraska

tate f Lluis Cle Qndraeht, Ch bee

My Commission Expires Nov 24, 2020

 

Notary Public

38745
 

 

Attorneys for Petitioner

David Booth Alden Jones Day (216) 586-7121
Counsel of Record North Point, 901 Lakeside Avenue
Cleveland, OH 44114

dbalden@jonesday.com

Party name: Douglas Prade

 

 
